IN THE
SUPREME COURT OF UNITED STATES
NAORA BEN-DOV,
Plaintiff/Appellant,

SHOSHANA ZELDA SRAGOW (aka STACY SUZANNE SRAGOW),
ALLEN PHILIP SRAGOW,
TAMAR MIRIAM BRETON,
Defendants/Respondents

After Decision by the Ninth Circuit Court of Appeals

Ninth Circuit Court Case No. 17-56807
U.S. District Court for Central CA, Santa Ana Case No. 8:17-cv-00122-DFM

APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI
NAORA BEN-DOV, PRO PER
135 E. Olive Avenue, #3552
Burbank, CA 91502
Attorney for the Plaintiff
SRAGOW & SRAGOW
Allen Philip Sragow, CA Bar# 183743
1360 Dickerson Road
Teaneck, NJ 07666
Attorney for the Defendants

JCE77ED
j t1AR 12 2019
QF THE c

1

TABLE OF CONTENTS

2

SUMMARY.....................................................................................................1

3

BACKGROUND...................................................................................2

4

ARGUMENT.......................................................................................4

5

CONCLUSION....................................................................................6

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
-

SUMMARY
TO the Honorable Justice Elana Kagen, as Circuit Justice for the United States
Court of Appeals for the Ninth Circuit:
Applicant-Plaintiff Naora Ben-Dov respectfully respectfully requests an
extension of time to file a petition for certiorari. Sup. Ct. R. 13.5. The earliest
deadline for Applicant to file her petition is Monday, April 8, 2019, which is
ninety days from Tuesday, January 8, 2019, the date when the Ninth Circuit
Court issued their rehearing paperwork. For good cause set forth herein,
10

Applicant asks that this deadline be extended by sixty days so that the new

11

deadline would be Friday, June 7, 2019.

12

BACKGROUND

13
14

This is a civil action involving multiple claims brought under an

15

aggregation of actions. Plaintiff Naora Ben-Dov alleges that Defendants Shoshar

16

Z. Sragow, Tamar M. Breton and Allen P. Sragow violated California's financial

17

elder abuse laws along with concealment of behavior and fraudulent activities in

18

an attempt to avoid detection and prosecution. Beginning after the applicant's

19

father passed away on October 5, 2013, S. Sragow removed applicant's sister

20

from the decedent's residence and denied Ben-Dov and sister from entering or

21
22
23
24
25
26
27
28

removing items from the apartment under the guise of being in charge of the
premises. Applicant did not question the motives or behavior due to Defendant
S. Sragow and Breton having stated they were in charge and the local rabbi
having concurred by telephone.
The consistent concealment of fraudulent behavior after the apartment
cleared by Defendants two of which are attorneys and the distancing of
-

-

themselves when questioned by Applicant and a detective, delayed Ben-Dov from
discovering that anything was amiss. Applicant was further delayed by Probate
Court while filing a Petition for Administrator to be allowed by law to review
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
1
-

1
2

decedent's paperwork and personal information. The Petition for Administrator
was formalized in July 2014 and allowed Applicant the ability to start discovery
and detection of the full extent of the fraud.

3
4
5
6
7

Plaintiff filed her original complaint for accounting and declaratory relief
in the Superior Court of the State of California, in Orange County on December 2,
2016, against Defendant S. Sragow. Plaintiffs complaint alleged Breach of
Trustee Duty, Fraud, Elder Abuse and Conversion, Fraudulent Misrepresentation
and Fraudulent Concealment, and Unjust Enrichment.

8
9
10

On January 24, 2017, Defendant S. Sragow, a resident of the State of New
Jersey, filed a Notice of Removal to Federal Court under 28 U.S.C. ยง ยง 1332, 1441,
1446.

11
12
13
14

This Court granted removal on January 26, 2017.
On March 1, 2017, Defendant S. Sragow filed a motion to dismiss. On

8, 2017, the court allowed Plaintiff leave to amend her complaint. On June 12,
2017,

the Plaintiff filed a first amended complaint against Defendant S. Sragow.
On June 26, 2017, Defendant S. Sragow filed a motion to dismiss which

15

was subsequently denied thereafter by Judge James V. Selna for failure to follow

16

Local Rule 7-3.

17

On June 30, 2017, Plaintiff filed an Ex Parte notice requesting per Judge

18

James V. Selna's rules to be allowed to extend his allotted time to add defendants

19

previously listed as DOEs. On July 5, 2017, Judge James V. Selna granted that

20

requested and allowed sixty (6o) days to amend and file to include parties.

21

On August 7, 2017, both parties met for only a joint conference with Judge

22

James V. Selna to discuss the joint report and trial date. The case was migrated

23

during the conference to be presided over by Magistrate Judge Douglas F.

24

McCormick

25

On August 23, 2017, Plaintiff filed a Second Amended Complaint and

26

included two (2) additional defendants, Mr. Allen P. Sragow and Mrs. Tamar M.

27

Breton. That evening, Mr. Allen P. Sragow, sent an email threatening sanctions

28

against Plaintiff if the paperwork wasn't immediately withdrawn.

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
2
-

On September 6, 2017, Defendant filed a Motion for Summary Judgment

1
2
3
4

or Dismissal.
On September 19, 2017, Mr. Allen P. Sragow, acting in Pro Se and as
counsel for Defendant Tamar Breton, filed a Motion for Summary Judgment or
Dismissal.

5
6

On September 27, 2017, Mr. Allen P. Sragow filed a Motion for Sanctions
on both his behalf as Pro Se and as counsel for Defendant Tamar Breton.

7
8
9
10
11
12
13
14
15

On September 28, 2017, Plaintiff filed an Application for Default against
Defendants Allen P. Sragow and Tamar Breton for failure to file a response withir
the timeframe allowed by the court. On September 29, 2017, Plaintiff filed a
Motion for Default against Defendants Allen P. Sragow and Tamar Breton for
failure to file a response within the timeframe allowed by the court. On October 4,
2017,

Magistrate Judge Douglas F. McCormick denied Plaintiffs Application and

subsequent Motion for Default against Defendants Allen P. Sragow and Tamar
Breton.
On October 17, 2017, both parties appeared before Magistrate Judge

16

Douglas F. McCormick for a hearing on the Motion for Summary Judgment or

17

Dismissal filed by Defendant Shoshana Z. Sragow. Magistrate Judge Douglas F.

18

McCormick denied any other paperwork stating the additional defendants were

19

not added within the statute. Judge McCormick stated that the tentative would

20

be the court's decision on the motion paperwork.

21
22
23

On November 3, 2017, Magistrate Judge Douglas F. McCormick granted
the Motion for Summary Judgment for Defendant Shoshana Z. Sragow.
On November 3, 2017, Magistrate Judge Douglas F. McCormick denied

24

the Motion for Sanctions against Plaintiff on the grounds that Plaintiff was withi

25

her legal right per Judge James V. Selna's orders to add defendants.

26
27

On December 4, 2017, Plaintiff filed paperwork requesting an appeal of
the motion to the Ninth Circuit Court.

28

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
3
-

Plaintiff filed a timely appeal with the Ninth Circuit on April 11th, 2018. On
August 15, 2018, the Ninth Circuit affirmed the lower court decision. Plaintiff
thereafter filed a request for a rehearing on September 4, 2018.
On January 8, 2019, the Ninth Circuit denied the petition for a rehearing.
ARGUMENT
Recognizing that an extension of the time for the filing of a petition for certiorari
requires good cause and that requests for extensions of time are not favored, BenDov respectfully asks Justice Elena Kagen to extend the time for Ben-Dov to file a
10

petition for certiorari. Ben-Dov requests that the deadline be extended by sixty

11

days, so that the new deadline would be Friday, June 7, 2019. To establish good

12

cause for her request, Ben-Dov makes the following four arguments in favor of

13

extending the deadline.

14
15
16
17
18

First, Ben-Dov's application satisfies the express procedural requirements
of Supreme Court Rule 14.5. This Court would have subject matter jurisdiction to
hear Ben-Dov's petition for a writ of certiorari because Ben-Dov asserts claims
under RLUIPA and the Free Exercise and Due Process Clauses of the
Constitution, which provide federal question jurisdiction. This Court would also

19

have appellate jurisdiction to hear Ben-Dov's petition for a writ of certiorari

20

because Ben-Dov timely filed a petition for rehearing, which the Ninth Circuit

21

denied and Ben-Dov now seeks to timely file a petition for writ of certiorari.

22

The judgment that Ben-Dov seeks to review is the Ninth Circuit's August

23

23, 2018 decision,

24

included a copy of both the August 23, 2018 decision (Exhibit A to this

25

Application) affirming the District Court's order and the January 8, 2019 decisi

26

(Exhibit B to this Application) denying Ben-Dov's timely petition for rehearing.

27
28

which affirmed the District Court's order. And Ben-Dov has

Ben-Dov files this application more than ten days before the date her
petition is due because, as of now and without any extension, Ben-Dov's petition

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
4
-

would be due on April 8, 2019. Ben-Dov also asks for an extension of time only
for herself, as no other party has need to file a petition for writ of certiorari.
Second, Ben-Dov has good cause for her application because she is
representing herself as Pro Per and has no legal assistance or manner of
performing research outside of her own ability. Ben-Dov has understood from th
beginning of the filing in this matter that she has undertaken an enormous
responsibility with self-representation. Ben-Dov is wishing to continue her selfrepresentation and perform the duties expected of a Pro Per litigant with the
same groundwork and requirements any court would have of a licensed attorney.
Third, Ben-Dov has good cause for her application having made specific
10
11
12
13
14

and studied decision both as to the decision to file a petition for a writ of
certiorari and to ask for an extension of time. As to the decision to file a petition
for a writ of certiorari, Ben-Dov can certify that this petition will raise important
questions that this Court should address. Indeed, as Ben-Dov expressly certified
in her petition for rehearing, the Ninth Circuit's decision is contrary to their own

15

decisions regarding similar matters that caused those cases to be remanded back

16

to the lower courts. Ben-Dov does so in this case only because she feels that it is

17

particularly warranted and only after first trying to prepare the petition without

18

needing to request an extension.

19

Fourth, and finally, there would be no unfair prejudice if the Court were to

20

grant Ben-Dov's extension. This is a civil action for damages involving multiple

21

violations that occurred during the time period on and after October 5, 2013.

22

There is no pressing event that would be affected by a sixty-day extension of time

23

for filing a petition for a writ of certiorari. Meanwhile, Ben-Dov has timely

24

pursued her rights and has attempted to discover all fraud, which due to its

25

nature, took months to piece the puzzle together to properly bring forth her

26

complaint.

27
28

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
5
-

CONCLUSION

1
2

For those reasons, Ben-Dov respectfully asks Justice Kagen, as Circuit
Justice for the Ninth Circuit, to extend the time for Ben-Dov to file a petition for

3
4

writ of certiorari. Ben-Dov requests that the deadline be extended by sixty days,
so that the new deadline would be Friday, June 7, 2019.

5
6

March 5, 2019

/Th

Signed:

7
8

NaoraBe

Per

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

APPLICATION FOR EXTENSION OF TIME TO FILE PETITION
FOR WRIT OF CERTIORARI
6
-

